Annual Percentage Rate
(APR) for Purchases

19.9%

APR for Cash Advances 19.9%
Paying Interest

Minimum Interest
Charge
To learn more about factors to consider when applying for or using a credit card, visit the
website of the Consumer Financial Protection Bureau at
http://www.consumerfinance.gov/learnmore

O

For Credit Card Tips
from the Consumer
Financial Protection
Bureau

LI

N

Set-up and
Maintenance
Fees

$50.00

Transaction Fees

3%

$39.00
$39.00

Billing Rights:

PY

O

C

How We Will Calculate Your Balance:

E

Penalty Fees

5%

N

$8.00

FEES AND INTEREST CHARGES:
FEES AND INTEREST CHARGES:
INTEREST CHARGES
Periodic INTEREST CHARGES: INTEREST CHARGES
INTEREST CHARGES
INTEREST CHARGES
INTEREST CHARGES
How we calculate INTEREST CHARGES:
INTEREST CHARGE
CHARGE

Average Daily Balance

How we calculate Average Daily Balance and Daily Periodic Rate:

Average Daily Balance
INTEREST CHARGE
Average Daily Balance

INTEREST CHARGE
INTEREST
Daily Periodic Rate

Average Daily Balance
Daily Balances
Average Daily Balance
Daily Balance

O

Daily Periodic Rate
ANNUAL PERCENTAGE RATE
assessed to your Credit Account.
Minimum INTEREST CHARGE:
INTEREST CHARGE

INTEREST CHARGE

N

Annual Fee:

The APR applicable to Purchases will be applied to fees

Cash Advance Fee:

INTEREST CHARGE

Return Item Charge:

LI

Foreign Currency Transaction Fee:
Late Payment Fee:

N

OTHER CHARGES AND IMPORTANT INFORMATION:

Additional Card Fee:
Credit Limit Increase Fee:

E
C

Copying Fee:
Credit Insurance:
Express Delivery Fee:
Wire Transfer Fee:
Total Minimum Amount Due:

TRUTH IN SAVINGS DISCLOSURE - SECURITY DEPOSIT ACCOUNT

Transaction Limitations:

®

PY

O

Rate Information:
Minimum Balance Limitations:

®

See the Credit Card Contract for further information regarding this
Credit Account. Retain these important documents.

®

Pledge Agreement: As a security for the payment of all credit extended through your
Credit Account, you pledge to, and grant First PREMIER Bank, its successors and
assigns, a security interest in all funds now and hereafter deposited in your deposit
account. You authorize us to unconditionally restrict withdrawals from your deposit
account. If your Credit Account is in default, or if your Credit Account is terminated
for any reason, we may at any time thereafter, and without notice to you (unless
otherwise required by law), apply all or part of the funds in your deposit account to the
payment of any and all amounts owed on your Credit Account. We may also exercise
any other remedies under the terms of this Contract or otherwise available in law.

LI

validity or enforceability of the Credit Card Contract as a whole is for the arbitrator,
not a court, to decide.
Agreement to Arbitrate: Any Claim shall be resolved and settled exclusively and
finally by binding arbitration, in accordance with this Provision. Binding arbitration
shall not be required, however, for collection actions we bring in court if you default
on your Credit Account as set forth in the Credit Card Contract. Furthermore, both
you and we retain the right to pursue in a small claims court (or your state’s equivalent
court) any Claim that is within that court’s jurisdiction, so long as the matter remains in
such court and advances only on an individual (non-class, non-representative) basis.
For any Claims covered by this Provision, a party who asserted a Claim in a lawsuit
in court may elect arbitration with respect to any Claim subsequently asserted in that
or any related or unrelated lawsuit by any other party.
Class Action Waiver: If a Claim is arbitrated, neither you nor we will have the right: (a)
to participate in a class action, private attorney general action or other representative
action in court or in arbitration, either as a class representative or class member;
or (b) to join or consolidate Claims with Claims of any other persons. An award in
arbitration shall determine the rights and obligations of the named parties only, and
only with respect to the Claim(s) in arbitration, and shall not (i) determine the rights,
obligations, or interests of anyone other than a named party, or resolve any Claim of
anyone other than a named party; nor (ii) make an award for the benefit of, or against,
anyone other than a named party. No arbitration administrator or arbitrator shall have
the power or authority to waive, modify, or fail to enforce this section, and any attempt
to do so, whether by rule, policy, arbitration decision or otherwise, shall be invalid
and unenforceable. Any challenge to the validity of this Class Action Waiver shall be
determined exclusively by a court and not by the administrator or any arbitrator. Thus,
you agree that UNDER THIS ARBITRATION PROVISION THERE IS NO RIGHT OR
AUTHORITY FOR ANY CLAIMS TO BE LITIGATED IN COURT OR ARBITRATED
ON A CLASS BASIS. Arbitration will only be conducted on an individual Claim basis
and there is no right or authority to consolidate or join any of your Claims with any
other Claims. YOU AGREE THAT YOU ARE VOLUNTARILY AND KNOWINGLY
WAIVING ANY RIGHT TO PARTICIPATE AS A REPRESENTATIVE OR MEMBER
OF ANY CLASS OF CLAIMANTS PERTAINING TO ANY CLAIM SUBJECT TO
ARBITRATION UNDER THIS PROVISION.
Voluntary Waiver of the Right to a Jury Trial: As a result of this Provision, neither
you nor we have the right to litigate any Claim in court or the right to a jury trial on any
Claim, except as provided above. YOU AGREE THAT YOU ARE VOLUNTARILY
AND KNOWINGLY WAIVING ANY RIGHT YOU MAY HAVE TO GO TO COURT OR
TO HAVE A JURY TRIAL.
Governing Law: This agreement to arbitrate is made pursuant to a transaction
involving interstate commerce and shall be governed by the Federal Arbitration Act,
9 U.S.C. §§ 1-16, as it may be amended. If for any reason the Federal Arbitration
Act does not apply, the substantive law of the State of South Dakota shall govern
this Provision.
Arbitration Location and Procedure: Any arbitration hearing at which you wish
to appear will take place at a location within the federal judicial district that includes
your billing address at the time the Claim is filed. The party bringing the Claim
may file its Claim at the American Arbitration Association (“AAA”), or an arbitration
organization mutually agreed upon by the parties. The arbitration organization that
is selected will administer the arbitration pursuant to its procedures in effect at the
time of filing, subject to this Provision. If you do not agree to file your claim with AAA,
and the parties cannot agree on an alternative arbitration organization, an arbitrator
will be appointed by a court pursuant to the Federal Arbitration Act. In the event
of a conflict or inconsistency between the respective organization’s rules and this
Provision or the Credit Card Contract, this Provision shall govern. The arbitration will
be conducted before a single arbitrator, whose authority is limited solely to individual
Claims between you and us. The arbitration will not be consolidated with any other
arbitration proceeding. Any decision rendered in such arbitration proceeding will be
final and binding on the parties, except for any appeal rights under the FAA, and
judgment may be entered in a court of competent jurisdiction. The rules and forms
of AAA may be obtained as follows: American Arbitration Association, 120 Broadway,
Floor 21, New York, N.Y. 10271, website at www.adr.org.
Arbitrator’s Authority: The arbitrator shall apply the applicable substantive law,
consistent with the Federal Arbitration Act; shall apply statutes of limitation; and shall
honor claims of privilege recognized at law. In conducting the arbitration proceeding,

E

N

the arbitrator shall not apply any federal or state rules of civil procedure or evidence.
THE RULES AND PROCEDURES OF THE AAA OR OTHER ARBITRATION
ORGANIZATION WILL GOVERN THE RIGHT TO ENGAGE IN PRE-ARBITRATION
DISCOVERY. Either party may, however, request to expand the scope of discovery. If
a request is made, within 15 days of the requesting party’s notice, the objecting party
may submit objections to the arbitrator with a copy of the objections provided to the
party requesting expansion. The grant or denial of a party’s request will be in the sole
discretion of the arbitrator, who shall notify the parties of the final decision within 20
days of the objecting party’s submission.
The Arbitrator’s Award: The arbitrator may award any damages or other relief or
remedies that would apply under applicable law to an individual action brought in
court, including, without limitation, punitive damages (which shall be governed by
the Constitutional standards employed by the courts), attorneys’ fees and costs and
injunctive, equitable and declaratory relief (but only in favor of the individual party
seeking relief and only to the extent necessary to provide relief warranted by that
party’s individual claim). At the timely request of either party, the arbitrator shall
write a brief explanation of the grounds for the decision. Judgment upon the award
rendered by the arbitrator may be entered in any court having jurisdiction thereof. No
arbitration award between you and us will have any impact on any dispute involving
anyone who is not a party to the arbitration, nor will an arbitration award between us
and any other person have any impact to an arbitration between you and us.
Expenses: Regardless of who demands arbitration, we will pay all expenses
of arbitration, including the filing, administrative, hearing and arbitrator’s fees
(“Arbitration Fees”), to the extent that the Arbitration Fees exceed the amounts you
would be required to pay for filing a lawsuit in state or federal court, whichever is
less. If you have already paid a court filing fee, you will not be required to pay
it again. Throughout the arbitration, each party shall bear his or her own attorney
fees and expenses, such as witness and expert witness fees. If you prevail in the
arbitration of any Claim against us, we will reimburse you for any fees you paid to
the arbitration organization in connection with the arbitration. The arbitrator will have
the authority to award fees and costs of attorneys, witnesses and experts to the
extent permitted by this Credit Card Contract, the administrator’s rules or applicable
law. With respect to Claim(s) asserted by you in an individual arbitration, we will pay
your reasonable attorney, witness and expert fees and costs if and to the extent you
prevail, if applicable law requires us to or if we must bear such fees and costs in order
for this Arbitration Provision to be enforced.
Binding Effect and Survival: You and we agree that, except as specifically provided
for above, the arbitrator’s decision will be final and binding on all parties subject to this
Provision. This Provision is binding upon you, us, and the heirs, successors, assigns
and related third parties of you and us. This Provision shall survive termination of your
account, whether it be through voluntary payment of the debt in full by you, a legal
proceeding initiated by us to collect a debt that you owe, a bankruptcy by you or a
sale of your Credit Account by us.
Severability: If any part of this Provision is deemed or found to be unenforceable for
any reason, the remainder shall be enforceable, except as follows:
A. The parties to this Provision acknowledge that the provision titled “Class
Action Waiver” is material and essential to the arbitration of any disputes between
the parties and is non-severable from this Provision. If the Class Action Waiver is
limited, voided or found unenforceable, then this Provision (except for this sentence)
shall be null and void with respect to such proceeding, subject to the right to appeal
the limitation or invalidation of the Class Action Waiver. The parties acknowledge and
agree that under no circumstances will a class action be arbitrated.
B. If a Claim is brought seeking public injunctive relief and a court
determines that the restrictions in the Class Action Waiver and/or elsewhere in this
Provision prohibiting the arbitrator from awarding relief on behalf of third parties are
unenforceable with respect to such Claim (and that determination becomes final
after all appeals have been exhausted), the Claim for public injunctive relief will
be determined in court and any individual Claims seeking monetary relief will be
arbitrated. In such a case the parties will request that the court stay the Claim for
public injunctive relief until the arbitration award pertaining to individual relief has
been entered in court. In no event will a Claim for public injunctive relief be arbitrated.

PY

O

C

TERMS AND CONDITIONS OF YOUR
REQUIRED DEPOSIT ACCOUNT
The following additional terms apply in connection with your required deposit account.
Deposit: An initial deposit account balance is needed to open your Credit Account.
The initial deposit account balance amount needed is printed in the Truth In Savings
Act Disclosure. Once your Credit Account is opened, you may make additional
deposits to your deposit account up to a maximum deposit account balance of
$5,000.00. Any non-cash items tendered for deposit, (including items drawn on us)
will be given only provisional credit until collection is final. We are not responsible for
transactions initiated by mail or outside depository until we actually receive them.
Withdrawals: Since this deposit account is collateral for your Credit Account,
withdrawals are not permitted from this deposit account while there remains an
outstanding balance in your Credit Account or while you retain possession of any
Card. In the event that your Credit Account is cancelled either by you or by us, we
shall have a period of ninety (90) days from the earlier of the date of the return of
your Card or the expiration date of the Card for all charges made on the Card to clear.
When we receive payment in full under your Credit Account, and upon the expiration
of this period, we will remit to you the full amount remaining in your deposit account.
Additional Terms and Disclosures: Additional information about your deposit
account, including applicable federal Truth In Savings Act disclosures, were provided
to you upon our receipt of your initial deposit or in the Truth In Savings Act Disclosure.
Ownership of Account: Individuals--If the deposit account is opened in the name
of one person, it means the owner does not intend to create any survivorship rights
in any other person. Joint Accounts--If the deposit account is opened in the name
of more than one person, each person intends that upon their death the balance in
the deposit account (subject to the pledge to us) will belong to the surviving person(s)
named on the account.
Bankruptcy: If you become a debtor in any proceeding under the United States
Bankruptcy Code you agree that you will recognize us as a perfected secured creditor
with respect to the deposit account and that you will declare the deposit account as
exempt property pursuant to the provisions of the United States Bankruptcy Code or
applicable State exemption laws.
Amendments: We may amend the terms and conditions applicable to Your Required
Deposit Account separately from the remainder of this Contract at any time upon
reasonable notice to you by mail, as required by law. If this is a joint account, notice
by us to one of you is notice to both.

ARBITRATION AND LITIGATION
This Arbitration Provision (“Provision” or “Arbitration Provision”) facilitates the prompt
and efficient resolution of any disputes that may arise between you and us. Arbitration
is a form of private dispute-resolution in which persons with a dispute waive their
rights to file a lawsuit, to proceed in court and to a jury trial, and instead submit their
disputes to a neutral third person (an arbitrator) for a binding decision. You have the
right to opt out of this Arbitration Provision if you follow the instructions set out in the
paragraph titled “Right to Opt Out” below.
PLEASE READ THIS PROVISION CAREFULLY. IT PROVIDES THAT ALL
DISPUTES ARISING OUT OF OR RELATED TO THIS CREDIT CARD CONTRACT
SHALL BE RESOLVED BY BINDING ARBITRATION. ARBITRATION REPLACES
THE RIGHT TO GO TO COURT. IN THE ABSENCE OF THIS ARBITRATION
AGREEMENT, YOU AND WE MAY OTHERWISE HAVE HAD A RIGHT OR
OPPORTUNITY TO BRING CLAIMS IN A COURT, BEFORE A JUDGE OR JURY
AND/OR TO PARTICIPATE IN OR BE REPRESENTED IN A CASE FILED IN
COURT BY OTHERS (INCLUDING, BUT NOT LIMITED TO, CLASS ACTIONS).
EXCEPT AS OTHERWISE PROVIDED, ENTERING INTO THIS AGREEMENT
CONSTITUTES A WAIVER OF YOUR RIGHT TO LITIGATE CLAIMS IN COURT
BEFORE A JUDGE OR JURY.
RIGHT TO OPT OUT: To opt out of this Arbitration Provision, you must mail a written
notice to us so that it is postmarked no later than 45 days after we mail your first Card
to you. Your first Card is the one we mail to you at approximately the time your first
Account application is approved. Your right to opt out will not apply when we send
you a copy of your Credit Card Contract or this Provision, or when we send you an
updated version of your Credit Card Contract or this Provision, or when we send any
replacement Card. If you opt out of this Arbitration Provision, you will retain your right
to litigate your dispute in a court, either before a judge or jury. The opt out notice
must include your name, address, and Account number, must be signed by you (or
all of you if there is more than one Account holder) and must be mailed to us at: PO
Box 5524, Sioux Falls, SD 57117-5524. If your written notice is not postmarked
within 45 days from the date we mail your first Card to you, your right to opt out will
terminate, and you agree that the terms of this Provision will apply. Your decision to
opt out of this Provision will not affect your other rights or responsibilities under this
Credit Card Contract.
If we later amend this Provision, we will let you know if you can opt out of that
amendment and, if so, how you can do so.
Parties and Matters Subject to Arbitration: For purposes of this Provision, “we” and
“us” include our employees, parent companies, subsidiaries, affiliates, beneficiaries,
agents and assigns and other persons and entities you assert a Claim against in
connection with a Claim you assert against us. For purposes of this Provision, “Claim”
means any claim, dispute or controversy by either you or us, arising out of or relating
in any way to this Credit Card Contract, your Credit Account, any transaction on
your Credit Account and our relationship. “Claim” also refers to any interaction or
communication between you and us that occurred prior to or concurrent with entering
into this Credit Card Contract, including those now in existence, regardless of
present knowledge. “Claim” shall refer to claims of every kind and nature, including,
but not limited to, initial claims, counterclaims, cross-claims and third-party claims.
All Claims are subject to arbitration, regardless of legal theory and remedy sought,
including, but not limited to, claims based in contract, tort (including negligence,
intentional tort, fraud and fraud in the inducement), agency, statutory law (federal
and state), administrative regulations or any other source of law (including equity).
Notwithstanding the foregoing, the word “Claim” does not include any dispute or
controversy about the validity, enforceability, coverage or scope of this Arbitration
Provision or any part thereof; all such disputes or controversies are for a court and
not an arbitrator to decide. However, any dispute or controversy that concerns the

N

STATE DISCLOSURES
California Residents: A married applicant may apply for a separate Credit Account.

As required by law, you are hereby notified that a negative credit reporting reflecting
on your credit record may be submitted to a Consumer Reporting Agency if you fail
to fulfill the terms of your credit obligations. After credit approval, each applicant shall
have the right to use the Credit Account up to the limit of the Credit Account. Each
applicant may be liable for amounts extended under the plan to any joint applicant.
Delaware Residents: Service charges not in excess of those permitted by law will be
charged on the outstanding balances from month to month.
Kentucky Residents: You may pay the unpaid balance of your Credit Account in
whole or in part at any time.
Maryland Residents: Finance charges will be imposed in amounts or at rates not in
excess of those permitted by law.
Vermont Residents: First PREMIER Bank may obtain a consumer report for any
legitimate purpose in connection with your Credit Account or your application,
including but not limited to reviewing, modifying, renewing and collecting on your
Credit Account. Upon your request, we (First PREMIER Bank) will inform you of the
names and addresses of any Consumer Reporting Agencies that have furnished the
reports.
Ohio Residents: The Ohio laws against discrimination require that all creditors make
credit equally available to all credit worthy customers, and that Consumer Reporting
Agencies maintain separate credit histories on each individual upon request. The
Ohio Civil Rights Commission administers compliance with this law.
Married Wisconsin Residents: No provision of any marital property agreement,
unilateral statement, or court order applying to marital property will adversely affect a
creditor’s interests unless prior to the time credit is granted, the creditor is furnished
with a copy of the agreement, statement, or court order, or has actual knowledge of
that provision.
Washington Residents: A service charge will be computed on the outstanding
balance for each month. You may at any time pay your total unpaid balance.

O

• At least three business days before an automated payment is scheduled, if you want
to stop payment on the amount you think is wrong.
You must notify us of any potential errors in writing (or electronically). You may call
us, but if you do we are not required to investigate any potential errors and you may
have to pay the amount in question.
What Will Happen After We Receive Your Letter: When we receive your letter,
we must do two things:
(1) Within 30 days of receiving your letter, we must tell you that we received your
letter. We will also tell you if we have already corrected the error.
(2) Within 90 days of receiving your letter, we must either correct the error or explain
to you why we believe the bill is correct.
While we investigate whether or not there has been an error:
• We cannot try to collect the amount in question, or report you as delinquent on
that amount.
• The charge in question may remain on your Statement, and we may continue to
charge you interest on that amount.
• While you do not have to pay the amount in question, you are responsible for the
remainder of your balance.
• We can apply any unpaid amount against your credit limit.
After we finish our investigation, one of two things will happen:
• If we made a mistake: You will not have to pay the amount in question or any interest
or other fees related to that amount.
• If we do not believe there was a mistake: You will have to pay the amount in
question, along with applicable interest and fees. We will send you a statement of the
amount you owe and the date payment is due. We may then report you as delinquent
if you do not pay the amount we think you owe.
If you receive our explanation but still believe your bill is wrong, you must write to us
within 10 days telling us that you still refuse to pay. If you do so, we cannot report
you as delinquent without also reporting that you are questioning your bill. We must
tell you the name of anyone to whom we reported you as delinquent, and we must let
those organizations know when the matter has been settled between us.
If we do not follow all of the rules above, you do not have to pay the first $50.00 of the
amount you question even if your bill is correct.
Your Rights If You Are Dissatisfied With Your Credit Card Purchases: If you are
dissatisfied with the goods or services that you have purchased with your credit Card,
and you have tried in good faith to correct the problem with the merchant, you may
have the right not to pay the remaining amount due on the Purchase.
To use this right, all of the following must be true:
(1) The Purchase must have been made in your home state or within 100 miles of
your current mailing address, and the Purchase price must have been more than
$50.00. (Note: Neither of these are necessary if your Purchase was based on an
advertisement we mailed to you, or if we own the company that sold you the goods
or services.)
(2) You must have used your credit Card for the Purchase. Purchases made with
Cash Advances from an ATM or with a check that accesses your Credit Account do
not qualify.
(3) You must not yet have fully paid for the Purchase.
If all of the criteria above are met and you are still dissatisfied with the Purchase,
contact us in writing (or electronically) at:
First PREMIER Bank
P.O. Box 5524
Sioux Falls, SD 57117-5524
www.mypremiercreditcard.com
While we investigate, the same rules apply to the disputed amount as discussed
above. After we finish our investigation, we will tell you our decision. At that point, if
we think you owe an amount and you do not pay, we may report you as delinquent.
Your Liability for Unauthorized Use of Your Credit Account: You will not be liable
for unauthorized use of your Card or Credit Account. However, to protect your rights,
you are required to notify us orally or in writing as soon as you are aware that your
Card or Credit Account has been lost, stolen or used without your consent. Certain
exceptions apply. To notify us of the loss, theft or possible unauthorized use of your
Card, call us at 1-800-987-5521, 24 hours a day.

M-131921

SEC New

08/20

First PREMIER Bank
CREDIT CARD AND DEPOSIT ACCOUNT CONTRACT
AND ACCOUNT OPENING DISCLOSURES (cont’d)
This Contract explains the terms and conditions of your Credit Account with us,
including important provisions relating to arbitration and litigation. For additional
important information on fees and INTEREST CHARGES and other contract
provisions that apply to your Credit Account, please review the Account
Opening Disclosures printed on the card carrier containing your Card. Be sure
to retain all Contract documents for future reference.
YOUR CONTRACT WITH US
Your Mastercard® or Visa® brand Credit Account is governed by the terms and
conditions in this Contract and the Account Opening Disclosures printed on the card
carrier containing your Card (“Contract”).
Applicable Law: No matter where you live, our Contract with you and the terms of
your Credit Account will be governed by the laws of the State of South Dakota and
applicable federal law.
Effective Date: Unless you are a resident of the State of New York, this Contract is
effective upon the earlier of (1) the first Purchase made or Cash Advance taken on
your Credit Account, and (2) the expiration of 30 days from the date we issue the
Card to you if you do not provide us written notice of your desire to cancel within this
30 days. If you are a resident of the State of New York, this Contract is not effective
until the earlier of (1) the first Purchase made or Cash Advance taken on your Credit
Account, and (2) the date you move from the State of New York, unless the date you
move from the State of New York is less than 30 days from the date we issue a Card
to you, in which case this Contract will be effective on the date that is 30 days from the
date we issue a Card to you (and not the date you move from the State of New York)
if you do not provide us written notice of your desire to cancel within this 30 days. In
all cases, if any fees are required to be paid prior to opening your Credit Account, this
Contract will not be effective and your Credit Account will not be opened until such
fees are paid in full. You are not obligated to pay any fees or INTEREST CHARGES
(other than any fees required to be paid prior to opening your Credit Account) until
this Contract is effective.
DEFINITIONS USED IN THIS CONTRACT
In this Contract, “we”, “us” and “our” each refer to First PREMIER Bank (the
“Bank”).
“Authorized User” means any person authorized by you to use the Card or Credit
Account.
“Billing Cycle” begins on the day after the Statement Closing Date of the previous
Statement and includes the Statement Closing Date of the current Statement.
“Card” means all the plastic credit cards we issue to you or any other person who is
authorized to use the Credit Account. In the event we issue other devices by which
you can access your Credit Account, those devices will also be “Cards” for purposes
of this Contract.
“Closing Date” means the last day of any Billing Cycle.
“Credit Account” means the credit card account that we open for you and the
relationship that is established between you and us by this Contract. This Credit
Account is used to record transaction activity made by you when you access or
otherwise utilize the line of credit we extend to you when you use your Card.
“New Balance” means the outstanding balance of your Credit Account at the end
of any Billing Cycle. The New Balance is the sum of the Previous Balance (defined
as the New Balance shown on your last Statement) less payments and credits, plus
new Cash Advances and Purchases and our charges posted during the Billing Cycle.
“Payment Due Date” means the date we must receive your payment, which is not
less than 27 days from the Closing Date.
“Proper Form” means a payment sent by mail or courier that:
• is by check, money order, or cashier’s check payable in US dollars (do not
send cash)
• is payable to First PREMIER Bank (no third-party checks)
• includes your payment coupon, or includes your name and account number on
the check

ABOUT YOUR PAYMENTS
Amount of Payment, Avoiding Late Fees, and Payment Instructions: You must
make a payment by the Payment Due Date in each billing cycle that has a New
Balance. The amounts you owe are shown in the “Payment Information” box on
the first page of your Statement. To avoid a Late Payment Fee, we must receive a
payment at least equal to the Minimum Payment plus the Past Due Amount shown
on your Statement by 5 pm Central Time (referred to as the payment cutoff time) on
your Payment Due Date. You can make a payment by mail, by phone, by bill payment
service, or online. Instructions on making a payment and when the payment will be
credited to your account are included on your Statement. Generally, credits from
merchants are not treated as payments and will not reduce the amount you must pay
each Billing Cycle. The Payment Due Date will be at least 27 days from the Statement
Closing Date. Your Payment Due Date will be the same date each month. You can
pay all or any portion of your balance owed on your Account at any time.
Applying Your Payments: We may apply your payment to whichever balances
we choose to the extent it does not exceed the Total Minimum Amount Due shown
on your Statement. The amount of your payment in excess of the Total Minimum
Amount Due will be applied to balances subject to the highest APR prior to balances
subject to lower APRs. We may apply your payment to principal amounts, INTEREST
CHARGES, fees and other charges in any order we choose, and we may change the
order of application of payments from time to time at our discretion.
Availability of Credit: Available credit created as a result of payments posted to your
Credit Account may not be available for up to 20 days, or even longer if circumstances
warrant an additional hold, or if we deem ourselves at risk for any reason. Your
available credit may be limited, from time to time, if you provide your Credit Account
number or Card to a merchant that processes advance authorizations, such as
hotels, motels and car rental. Such an authorization may limit your ability to make
Purchases and take Cash Advances on your Credit Account until the authorization is
canceled by the merchant and your available credit is released.
Electronic Check Presentment: When you send us a personal check, you authorize
us to either use information from your check to make a one-time electronic transfer
from your account, or to process the payment as a check transaction. If your check
is processed electronically, your canceled check will not be returned to you by your
financial institution. We will retain an image of your electronically processed check(s)
as required by law. If requested prior to the time we are allowed by law to destroy
electronically processed checks, we will provide you with a copy of your electronically
processed check(s) upon your request. Funds may be withdrawn from your bank
account as soon as the day your payment is received. We agree to accept your
checking account statement as proof of payment. The description on your checking
account statement will read: PREMIER CR CARD CHECK-PAYMT, serial number of
the check, amount of the payment and date of the transaction. If you choose to opt
out of electronic check presentment, please call our Customer Service Department
at 1-800-987-5521.
Late Payments: We may accept late payments, partial payments or checks or other
payment instruments marked to impose terms or conditions of acceptance such as

“paid in full” without waiving any of our rights under this Contract, and no attempt
by you to impose any term or condition of acceptance will be effective against us.
Satisfaction of a debt for less than the full amount due or imposition of any other
term or condition on us requires a written agreement, signed by an authorized Bank
representative.
DEFAULT PROVISIONS
Events of Default: You will be in default of this Contract if any of the following occur
on this or any Related Credit Account:
• You do not pay at least the Total Minimum Amount Due on your Credit Account
on or before the Payment Due Date.
• You die or become legally incompetent.
• You become insolvent or bankrupt.
• You exceed or attempt to exceed your Credit Limit.
• You provide us with or have provided us with false or misleading information or
signatures at any time.
• You fail to comply with this Contract.
• You fail to make any payment or perform any promise in any agreement or
obligation you have with us.
• Any judgment, lien, attachment or execution is issued against you or your
property.
• You request an excessive number of replacement Cards.
• We reasonably believe that you will not pay amounts owed to us for any
reason.
If You Are In Default: Upon your default of this Contract, we will have all remedies
provided by law including, without limitation, and without prior notice or demand, the
right to:
• Deny use of your Credit Account.
• Close or refuse to renew your Credit Account.
• Demand the return of your Card(s).
• Declare your entire balance immediately due and payable.
• Initiate collection activity.
• Not replace your Card(s).
Collection Costs: To the extent permitted by law, you must pay all court and
collection costs, including reasonable attorneys’ fees, the costs of placing your Credit
Account in the Warning Bulletin and the costs of confiscating your Card, that we incur
as a result of your default.

E

N

CLOSING YOUR CREDIT ACCOUNT
We May Suspend or Close Your Credit Account: We may suspend your Credit
Account privileges or permanently cancel and close your Credit Account at any time,
for any reason.
You May Close Your Credit Account: You may cancel your Credit Account at
any time by notifying us by telephone or in writing. Even after your Credit Account
is closed, you remain responsible for paying any amounts you owe on the Credit
Account according to the terms of this Contract. If this is a joint Credit Account, either
of you may request that the Credit Account be closed and we will honor that request.
If your account is billed a Monthly Fee, refer to the Account Opening Disclosures
included on the credit card carrier for information about the billing of the fee when the
account is closed. If your account is billed an Annual Fee or Monthly Fee, refer to the
back of your monthly Statement for information on how to avoid the fees.
Non Use Inactivity Closure: If you have never made a payment or used your Credit
Account for a Purchase or Cash Advance, your Credit Account will be automatically
closed, and all fees posted to your Credit Account will be reversed, when your Credit
Account becomes 50 days delinquent (75 days from the initial Statement Closing
Date if you are a resident of the State of New York).

• Your account is closed before you pay anything after receiving a billing
statement.
When we will provide a partial refund. If your account is closed more than 11
days after the payment due date on your first billing statement, we will refund
the unpaid amount of the outstanding fees even if you have made a payment
after receiving a billing statement as long as you have not made a Purchase or
obtained a Cash Advance. However, we will not refund any amount you have
previously paid, including any other fees billed to your account.
When we will not provide a refund. We have no obligation to refund fees or
interest after you make a Purchase or obtain a Cash Advance following receipt
of these disclosures.
Credit Limit Increase Fee Refunds: We will refund the Credit Limit Increase Fee if
you reject the credit limit increase within 30 days after the date of the billing statement
on which the fee is billed. This will result in a reversal of the credit limit increase.
OTHER TERMS AND CONDITIONS
Required Deposit: We require your Credit Account to be secured by a deposit
account which you must maintain at First PREMIER Bank. Additional terms and
conditions governing the deposit account are explained elsewhere in this Contract.
Severability: If any provision of this Contract is invalid or unenforceable, it shall not
affect the validity or enforceability of any other provision of this Contract.
Changing This Contract: We may change this Contract from time to time. For
example, we may change your Credit Account number or the Minimum Payment, add
new INTEREST CHARGES or fees, change the ANNUAL PERCENTAGE RATE or
change the method of computing the balance upon which we impose INTEREST
CHARGES. We may also make other changes. We will notify you in writing of any
change if required by law. Contract changes will apply to amounts you owe at the
time the change is effective and to new transactions on your Credit Account, unless
otherwise required by law.
Use of Credit Reports: You authorize us to access and use your credit reports from
the consumer reporting agencies for any purpose permitted by law which may include
whether to extend, increase, or decrease credit, reviewing, renewing or servicing
your Credit Account, or determining whether to offer other products or services to
you.
Information Sharing: The following describes your agreement with us with respect
to information sharing. By requesting, obtaining or using a Credit Account from us
you agree that we may release information in our records regarding you and your
Credit Account:
• To comply with any properly served subpoena or similar request issued by a
state or federal agency or court.
• To share your credit performance with Consumer Reporting Agencies and
other creditors who we reasonably believe are or may be doing business with
you on your Credit Account.
• To provide information on your Credit Account to any third party who we
believe is conducting an inquiry in accordance with the Federal Fair Credit
Reporting Act.
• To share information with our employees, agents or representatives performing
work for us in connection with your Credit Account.
• To communicate information as to our transactions or experiences with you
to persons or entities related by common ownership or affiliated by corporate
control or with any third party (including non-affiliates).
We may also share information such as: (1) information other than our own
transactions with you with persons or entities related to the Bank by common
ownership or corporate control; or (2) information on your Credit Account
with certain companies to provide or offer you selected products, services or
cardholder benefits. You may direct us not to share one or both of these. If this is
your request call 1-800-987-5521 or notify us in writing at First PREMIER Bank, P.O.
Box 5528, Sioux Falls, SD 57117-5528. Be sure to include your name, address and
Credit Account number. You may receive a copy of our information on your Credit
Account by writing or calling us at the address or telephone number listed above.
By requesting or obtaining a Credit Account, you authorize us to check your credit
history. You authorize your employer, bank and any other references listed to release
and/or verify information to us and our affiliates in order to determine your eligibility
for the Credit Account and any renewal or future extension of credit. If you ask, you

PY

O

C

RECEIVING STATEMENTS, OTHER INFORMATION AND
COMMUNICATIONS FROM US
Where We Send Statements: We will send Statements and any other notices to
you at the address shown in our files. If this is a joint Credit Account, we can send
Statements and notices to either of you. You agree to notify us promptly of any change
in your address. We may accept address changes or corrections from the United
States Postal Service. We may also mail Statements and other communications to
you at any address we determine to be an address at which you can receive mail.
If you elect to receive Statements and other communications electronically, we may
send those Statements and communications as directed by you.
When You Receive Your Statements: We will send you a Statement at the end of
each monthly Billing Cycle in which your Credit Account has a debit or credit balance
of more than $1.00, if an INTEREST CHARGE has been imposed or if other account
activity has occurred. Your Statements will arrive around the same time each month,
however we reserve the right to change the date of your Billing Cycle at any time.
Understanding Your Statement: The Statements we send to you will reflect the
activity and our INTEREST CHARGES and other charges, costs and fees on your
Credit Account during the Billing Cycle. They will also show your Total Minimum
Amount Due and Payment Due Date, which is the date by which we must receive
payment. The information contained on the Statement will be deemed to be correct
unless you advise us in writing of any error within 60 days of the date on which we
send your Statement. If there are more than one of you living at different addresses,
we will send the Statements only to the person named as the “Applicant” in your
application.
Consent to calls and messages using autodialer, prerecorded message and
artificial voice: You agree and expressly consent that we and our agents, affiliates,
contractors, subcontractors, and assignees may call or contact you at any cellular,
mobile, home, work, or other telephone number, electronic mail address, or other
digital or electronic communication terminal, link, point or address of any kind
whatsoever that (a) you provide or use to contact us, (b) we obtain from a third party
such as an employer, friend, family member, another creditor, or person with whom
you have done business, or (c) we obtain through any legal means, including without
limitation, a caller identification system that captures your number. You expressly

LI

USING YOUR CREDIT ACCOUNT
Your Promise To Pay: You agree to pay us for all charges, Cash Advances,
INTEREST CHARGES, Purchases and fees incurred on your Credit Account by you,
or by any Authorized User, as well as any other fees imposed by us, as explained
in this Contract. If more than one person requests or accepts the Credit Account,
each and every person individually and jointly are responsible for payment until the
account is paid in full.
Joint Account Holders: If this is a joint Credit Account, each person who signed the
application: (1) may obtain Purchases and Cash Advances not to exceed the total
credit limit; (2) will be responsible for paying all amounts owed; and (3) can close
the Credit Account.
Accessing Your Credit Line: You can use the Card and your Credit Account to make
Purchases and obtain Cash Advances. Upon your request, you may be assigned a

consent to receiving calls, text messages and other communications from us, our
agents, affiliates, contractors, subcontractors, and assignees on any number that
is assigned to a cellular telephone service, wired telephone service, paging service,
facsimile machine, specialized mobile radio service, radio common carrier service,
internet protocol service, or other electronic, digital or analog service that is placed
through or utilizes an automatic telephone dialing system, artificial voice or prerecorded message, or any other technology, even if you incur a cost when we contact
you. You accept responsibility for all costs you incur when contacted through any of
these means.
Indemnification: You agree to indemnify us for all damages, costs and expenses,
including reasonable attorney fees, we incur when we attempt to contact you at any
third party’s telephone number that you provide to us, including any number for which
you fail to notify us is no longer associated with you as the subscriber.
E-mail: By providing us with your e-mail address, you consent to receive
correspondence electronically from us and our affiliates and service providers. You
agree that we may communicate with you by e-mail for any lawful reason.
Other Communication Devices: If you provide us with any other form of electronic
communication mechanism, you agree that we may communicate with you by that
mechanism for any lawful reason.

N

USING YOUR CARD
Sign Your Card: Be sure to sign your Card before you use it.
If You Do Not Want the Card: If you do not want the Card and Credit Account, you
must contact us by telephone or in writing asking us to close your Credit Account.
Do Not Give Your Card to Others: Cards may not be given to anyone else to use.
Other people who want a Credit Account should apply separately.
Your Responsibility for Authorized Users: If another person is given access to
your Credit Account with your express or implied permission, notwithstanding the
provision above, that person is an Authorized User, even if we did not issue an
additional Card in the Authorized User’s name. At your request, and if we agree,
we may issue an additional Card in the name of an Authorized User with your Credit
Account number.
You will be responsible for all charges, Cash Advances, INTEREST CHARGES,
Purchases and fees incurred by any Authorized User. We are not required to try to
obtain payment from any Authorized User before requiring payment from you.
If you wish to remove an Authorized User from your Credit Account you must contact
us either by telephone or in writing. You will still be responsible for payment of all
Purchases, Cash Advances, INTEREST CHARGES and fees incurred or obtained
by the Authorized User. We may close your existing Credit Account and issue you a
new Card and account number. You and each Authorized User agree that we may
report account information to Consumer Reporting Agencies in the names of both you
and the Authorized User.
Lost or Stolen Cards: To protect your rights, you must notify us immediately at
1-800-987-5521 if your Card is lost or stolen or if you suspect that it has been used or
may be used without your permission. If your Card is reported as lost or stolen or you
are claiming unauthorized use of your Credit Account or Card, we may require you to
file one or more reports with the appropriate law enforcement agencies and us prior
to our removal of possible unauthorized charges made against your Credit Account.
You will not be liable for unauthorized use of your Card. Certain exceptions apply.
Refusal to Accept Your Card: We are not responsible if any person or merchant
does not accept your Card, or if an ATM or other device fails to properly operate. All
transactions, even when you get a receipt, are subject to our final verification.
Cards Are Our Property: You agree to return each Card issued on your Credit
Account to us upon our demand.

Personal Identification Number (PIN). If a PIN is assigned to you, you can obtain a
Cash Advance at any authorized ATM by using the Card and PIN.
Understanding Your Credit Limit: Your “Credit Limit” is the maximum amount of
credit we have approved for your Credit Account. The amount of your Credit Limit
is printed on the card carrier containing your Card and on your Statements. Your
balance may not exceed your Credit Limit at any time. At our sole discretion, we
may honor Purchases or Cash Advances in excess of your Credit Limit without
raising your Credit Limit. If we do, we may require you to pay us any amount over
your Credit Limit immediately. Decisions on Credit Limit increases may be based on
your performance under this Credit Account and other Related Credit Accounts you
have with us and other credit criteria. If we have previously allowed your balance to
exceed your Credit Limit, it does not mean that we will permit your balance to exceed
your Credit Limit again. We reserve the right to approve or deny authorizations or
transactions from any merchant at our sole discretion.
Obtaining Cash Advances: You may take Cash Advances on your Credit Account
in any of the following ways: By presenting the Card to us or any other participating
Mastercard® or Visa® financial institution to obtain cash, by using the Card at an
authorized merchant, other non-bank entity, or an Automated Teller Machine (ATM)
or other device to obtain cash or cash equivalent, or to make a transfer from your
Credit Account to any other deposit or loan account. Even if you use your Credit
Account to obtain cash from a non-bank entity, the transaction will be described as
a Bank Cash Advance.
You may not take Cash Advances in excess of $500.00 per day. The minimum Cash
Advance per transaction is $20.00. For Credit Accounts opened on or after June 1,
2003, your initial Cash Advance limit will be 10% of your assigned Credit Limit. Once
your Credit Account has been open and active for a minimum of 90 days, has two
consecutive months of current payment history, is not currently delinquent and no
payments have been returned for the past 60 days, your Cash Advance availability
may be increased to 50% of the assigned Credit Limit. For example, if your Credit
Limit is $250.00, your beginning Cash Advance limit will be $25.00 and may increase
to $125.00 once the criteria above are met.

O

“Related Credit Account(s)” means any Credit Accounts established using the
same Social Security Number.
“Statement” is a summary of your Credit Account activity provided to you at the end
of each Billing Cycle.
“Total Minimum Amount Due” means the total minimum amount we request that
you pay each month as indicated on your Statement. This amount includes the
Minimum Payment, any Past Due Amount and any Amount Over Limit Due, which is
the amount by which the New Balance exceeds your Credit Limit. (See the Minimum
Payment provisions on the Account Opening Disclosures printed on the card carrier
containing your Card for more information on how the “Total Minimum Amount Due”
is calculated.)
“You” and “your” mean each and every person who is authorized to use the Credit
Account, including Authorized Users, joint account holders and other persons you
authorize to use the Card.
Other important words used in this Contract begin with capital letters. They are
defined throughout this Contract.

REFUND DISCLOSURE
Initial Fee Refunds: The following describes our policy concerning the refund of
initial fees (those fees that are billed on your first statement):
When we will provide a full refund. We will refund the initial fees if you have
not made a Purchase or obtained a Cash Advance and either of the following
are true:
• Your account is closed within 11 days following the payment due date
shown on your first billing statement; or

will be told whether or not consumer reports on you were requested and the names
of the Consumer Reporting Agencies, with their addresses, that provided the reports.
If you designate an Authorized User to use your Card, you understand that account
information may also be reported to Consumer Reporting Agencies in the Authorized
User’s name.
No Waiver: Even if we do not exercise any right we may have against you, we do not
intend to waive that right. We can exercise it against you in the future.
Binding Effect Upon Death or Incompetency: If we pay a merchant for a Purchase
or post a Cash Advance to your Credit Account before we receive actual written
notice of your death or incompetence, or if we pay a merchant for a Purchase made
by you or post a Cash Advance taken by you prior to your death or incompetence,
that transaction will be a valid and binding Credit Account obligation upon you, your
estate and your personal representatives.
Our Liability To You: We have no liability to you, other than as placed on us by law.
We will meet our duty to care for your Credit Account(s) under reasonable banking
procedures. Our mere clerical error or honest mistake will not be considered a failure
to perform any of our obligations.
Transactions in Foreign Currencies: If you make a transaction in a foreign
currency, it will be converted into U.S. dollars, and you agree to accept the converted
amount. Visa USA, Inc. or Mastercard International, Inc. will use its currency
conversion procedures in effect when processing the transaction. The currency
conversion rate will be a rate selected by Visa or Mastercard, as applicable, from
the range of rates available in wholesale currency markets for the applicable central
processing date, which rate may vary from the rate Visa or Mastercard itself receives,
or the government-mandated rate in effect for the applicable central processing date,
in each instance, plus a foreign currency transaction fee in the amount disclosed
on your Account Opening Disclosures printed on the card carrier containing your
Card. This fee will be paid to us and applied to all transactions posted to your Credit
Account in a foreign currency, including all Purchase transactions, Cash Advance
transactions, ATM transactions and returns and adjustments (e.g., for returned
merchandise). The currency conversion rate used on the processing date may be
different than the rate that was in effect on the date you conducted the transaction.
We do not set the currency conversion rate, and we do not receive any portion of
it. We do, however, receive a foreign currency transaction fee as disclosed on your
Account Opening Disclosures printed on the card carrier containing your card.
Prohibition on Gambling and Illegal Transactions: Your Card and Credit Account
may not be used in connection with any gambling transaction (whether legal or
illegal). Also, your Card and Credit Account may be used only for valid and lawful
purposes. If you use, or allow someone else to use your Card or Credit Account for
any unlawful purpose or for any gambling transaction, you will be responsible for
such use and may be required to reimburse us for all amounts or expenses we pay
as a result of such use.
Call Recording: You agree and consent that we will record and may monitor
any calls between you and us. This includes both calls to and originated by First
PREMIER Bank, PREMIER Bankcard, LLC, our parent corporation, or any of our
affiliates, agents, independent contractors or service providers.
YOUR BILLING RIGHTS
KEEP THIS DOCUMENT FOR FUTURE USE
This notice tells you about your rights and our responsibilities under the Fair
Credit Billing Act.
What To Do If You Find A Mistake On Your Statement: If you think there is an error
on your statement, write to us at:
First PREMIER Bank
P.O. Box 5524
Sioux Falls, SD 57117-5524
(You may also contact us on the Web: www.mypremiercreditcard.com.)
In your letter, give us the following information:
• Account information: Your name and Credit Account Number.
• Dollar amount: The dollar amount of the suspected error.
• Description of problem: If you think there is an error on your bill, describe what you
believe is wrong and why you believe it is a mistake.
You must contact us:
• Within 60 days after the error appeared on your Statement.

